     Department of Homeland Security

     ��������������������������


  Technical Security Evaluation of DHS Activities at 

   Hartsfield͈Jackson Atlanta International Airport 





OIG-13-104                                    July 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                                 Washington, DC 20528 / www.oig.dhs.gov


  
                                         July 12, 2013 
 
MEMORANDUM FOR:	            Jeffrey Eisensmith 
                            Chief Information Security Officer 
                            Management Directorate 
 
FROM:	                      Frank Deffer 
                            Assistant Inspector General 
                             Office of Information Technology Audits 
                             
SUBJECT:	                    Technical Security Evaluation of DHS Activities at 
                             Hartsfield‐Jackson Atlanta International Airport  
   
Attached for your action is our final report, Technical Security Evaluation of DHS 
Activities at Hartsfield‐Jackson Atlanta International Airport.  We incorporated the 
formal comments from U.S. Customs and Border Protection, U.S. Immigration and 
Customs Enforcement, and the Transportation Security Administration in the final 
report.   
 
The report contains 20 recommendations aimed at improving information security at 
Hartsfield‐Jackson Atlanta International Airport.  Your office concurred with 20 
recommendations.  As prescribed by the Department of Homeland Security Directive 
077‐01, Follow‐Up and Resolutions for Office of Inspector General Report 
Recommendations, within 90 days of the date of this memorandum, please provide our 
office with a written response that includes your (1) agreement or disagreement,  
(2) corrective action plan, and (3) target completion date for each recommendation.  
Also, please include responsible parties and any other supporting documentation 
necessary to inform us about the current status of the recommendation.  Until your 
response is received and evaluated, the recommendations will be considered open and 
unresolved. 
 
Based on information provided in your response to the draft report, we consider the  
20 recommendations resolved.  The Department has already taken actions to resolve 
reported deficiencies, including providing documentation to support the resolution and 
closure of recommendations 5 and 20.  Once your office has fully implemented the 
remaining resolved but open recommendations, please submit a formal closeout letter 
to us within 30 days so that we may close the recommendations.  The memorandum 
should be accompanied by evidence of completion of agreed‐upon corrective actions 
and of the disposition of any monetary amounts. 
 
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Consistent with our responsibility under the Inspector General Act, we are providing 
   copies of our report to appropriate congressional committees with oversight and 
   appropriation responsibility over the Department of Homeland Security.  We will post 
   the report on our website for public dissemination. 
    
   Please call me with any questions, or your staff may contact Sharon Huiswoud, Director 
   of Information Systems, at (202) 254‐5451. 
    
   Attachment 
    
                                  




www.oig.dhs.gov                               2                                     OIG‐13‐104 
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   

   Executive Summary............................................................................................................. 1 

   

   Background ........................................................................................................................ 2 

   

   Results of Review ................................................................................................................ 7 

   

          CBP Did Not Comply Fully With DHS Sensitive System Policies ............................. 7 

          Recommendations ............................................................................................... 15 

          Management Comments and OIG Analysis ......................................................... 16 

           

          ICE Did Not Comply Fully With DHS Sensitive System Policies ............................ 18 

          Recommendations ............................................................................................... 26 

          Management Comments and OIG Analysis ......................................................... 27 

           

          TSA Did Not Comply Fully With DHS Sensitive System Policies ........................... 29 

          Recommendations ............................................................................................... 34 

          Management Comments and OIG Analysis ......................................................... 34 



   Appendixes
    

              Appendix A:          Objectives, Scope, and Methodology ............................................ 37 

              Appendix B:          Management Comments to the Draft Report ............................... 39 

              Appendix C:          Major Contributors to This Report ................................................ 44 

              Appendix D:          Report Distribution........................................................................ 45 


   Abbreviations
              AAG                              Atlanta Airport Group
              AO                               Authorizing Official
              ATL                              Hartsfield-Jackson Atlanta International Airport
              BIA                              business impact assessment
              CBP                              U.S. Customs and Border Protection
              CIO                              Chief Information Officer
              CISO                             Chief Information Security Officer
              CVE                              Common Vulnerabilities and Exposures
              DHCP                             Dynamic Host Configuration Protocol
              DHS                              Department of Homeland Security
              DHS OneNet                       DHS One Network


www.oig.dhs.gov                                                                                                                OIG-13-104 

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           DHS Directive 4300A DHS Sensitive Systems Policy Directive 4300A
           DHS 4300A Handbook DHS 4300A Sensitive Systems Handbook
           FAMS                Federal Air Marshal Service
           FAMSNet             Federal Air Marshal Service Network
           FIPS                Federal Information Processing Standards
           FISMA               Federal Information Security Management Act of 2002, as
                               amended
           GAO                 Government Accountability Office
           GSS                 general support system
           HSI                 Homeland Security Investigations
           ICE                 U.S. Immigration and Customs Enforcement
           ICON                ICE Communication Over Networks
           ICS                 Infrastructure Core System
           ISA                 interconnection security agreement
           ISSM                Information Systems Security Manager
           ISSO                Information Systems Security Officer
           ISVM                Information Security Vulnerability Management
           IT                  information technology
           LAN                 local area network
           LAX                 Los Angeles International Airport
           NIST                National Institute of Standards and Technology
           NOC                 Network Operations Center
           OIG                 Office of Inspector General
           OWFPS               OCIO Workstations with File and Print Servers
           PALS                Portable Automated Lookout System
           SAC                 Special Agent in Charge
           SAP                 System Availability Project
           SOC                 Security Operation Center
           SP                  Special Publication
           STIP                Security Technology Integrated Program
           TSA                 Transportation Security Administration
           TSANet              Transportation Security Administration Network
           TSE                 transportation security equipment
           WAN                 wide area network
           WFPS                Windows File and Print System




www.oig.dhs.gov                                                                  OIG-13-104

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Executive Summary
   As part of our Technical Security Evaluation Program, we evaluated technical and
   information security policies and procedures of Department of Homeland Security
   components at Hartsfield-Jackson Atlanta International Airport. U.S. Customs and
   Border Protection, U.S. Immigration and Customs Enforcement, and the Transportation
   Security Administration operate information technology systems that support homeland
   security operations at this airport.

   Our evaluation focused on how these components had implemented computer security
   technical, management, and operational controls at the airport and nearby locations.
   We performed onsite inspections of the areas where these assets were located,
   interviewed departmental staff, and conducted technical tests of internal controls. We
   also reviewed applicable policies, procedures, and other relevant documentation.

   The information technology security controls implemented at these sites have
   deficiencies that, if exploited, could result in the loss of confidentiality, integrity, and
   availability of the components’ respective information technology systems. For
   example, a technical control includes regularly scanning servers for vulnerabilities.
   However, not all departmental servers were being scanned for vulnerabilities.

   Also, these components were not always resolving known technical vulnerabilities in a
   timely fashion. Additionally, there were deficiencies in physical security and
   environmental controls at departmental server rooms. Further, information systems
   security officers for 6 of the 10 identified systems in use at the airport were not
   reviewing system audit logs. For example, some of these officers did not have access to
   the files where the audit logs were kept.

   We have briefed the components, and the Department’s Chief Information Security
   Officer, on the results of our audit. We have also made 20 recommendations to resolve
   the control deficiencies identified in this report. Management comments and Office of
   Inspector General analysis are included at appendix B.




www.oig.dhs.gov                                   1                                         OIG-13-104

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Background
   We designed our Technical Security Evaluation Program to provide senior Department
   of Homeland Security (DHS) officials with timely information on whether they had
   properly implemented DHS information technology (IT) security policies at critical sites.
   Our program is based on DHS Sensitive Systems Policy Directive 4300A, version 9.1
   (DHS Directive 4300A), which applies to all DHS components. It provides direction to
   managers and senior executives regarding the management and protection of sensitive
   systems. DHS Directive 4300A also describes policies relating to the operational,
   technical, and management controls that are necessary for ensuring confidentiality,
   integrity, availability, authenticity, and nonrepudiation within the DHS IT infrastructure
   and operations. A companion document, the DHS 4300A Sensitive Systems Handbook,
   version 9.1 (DHS 4300A Handbook), provides detailed guidance on the implementation
   of these policies. For example, according to the DHS 4300A Handbook:

           Components shall categorize systems in accordance with FIPS [Federal
           Information Processing Standards] 199, Standards for Security Categorization of
           Federal Information and Information Systems and shall apply the appropriate
           NIST SP 800-53 controls.1

   DHS IT security policies are organized under operational, technical, and management
   controls. According to DHS Directive 4300A, these controls are defined as follows:

       •	 Operational Controls – Focus on mechanisms primarily implemented and
           executed by people. These controls are designed to improve the security of a
           particular system or group of systems, and often rely on management and
           technical controls.

       •	 Technical Controls – Focus on security controls executed by information
           systems. These controls provide automated protection from unauthorized
           access or misuse. They facilitate detection of security violations, and support
           security requirements for applications and data.

       •	 Management Controls – Focus on managing both the system information
           security controls and system risk. These controls consist of risk mitigation
           techniques and concerns normally addressed by management.




   1
    This refers to National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53,
   Recommended Security Controls for Federal Information Systems.

www.oig.dhs.gov                                         2	                                             OIG-13-104

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   Our evaluation focused on U.S. Customs and Border Protection (CBP), U.S. Immigration
   and Customs Enforcement (ICE), and the Transportation Security Administration (TSA),
   which have activities at Hartsfield-Jackson Atlanta International Airport (ATL) and rely
   on a range of IT assets to support their respective missions. As a Category X airport, ATL
   is one of the airports with the largest number of enplanements in North America,
   processing approximately 92 million passengers in 2011.2

   U.S. Customs and Border Protection

   At ATL, CBP Officers and Agricultural Specialists staff 101 primary passenger lanes,
   review flight data for terrorist-related activities, collect duties, and process fines and
   civil penalties. Additionally, CBP staff at nearby locations use IT assets to perform cargo
   manifest review and targeting, as well as outbound passenger review and targeting.

   We reviewed the following CBP locations:

       •	   Port Office, Atlanta, GA
       •	   Office of Field Operations, College Park, GA
       •	   St. George Warehouse, Forest Park, GA
       •	   ATL Concourse E
       •	   ATL Concourse F

   CBP staff at these locations use the following systems:

       •	 The DHS One Network (OneNet). This general support system (GSS) provides all
            wide area network (WAN) communications for the service-wide DHS sensitive
            but unclassified environment. Although the DHS Management Directorate’s
            Enterprise Services is the system owner, CBP serves as the DHS OneNet steward.
            CBP is also responsible for daily operations and management of the enterprise-
            wide DHS OneNet. In 2005, DHS began to consolidate components’ existing
            infrastructures into a single WAN, known as the DHS OneNet. The DHS OneNet
            supports communication and interaction among many organizational entities
            within and outside DHS. The Department’s goal for the DHS OneNet is to
            facilitate the ability of all DHS components to share data by integrating
            component networks into a shared network infrastructure to include network
            operations, security operations, architecture, and management.




   2
    There are five categories of airports: X, I, II, III, and IV. Category X airports have the largest number of
   enplanements and Category IV airports have the smallest number.

www.oig.dhs.gov                                           3	                                               OIG-13-104

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



       •	 The Southeast Field Local Area Network (LAN). This network provides the
           General Support Network Infrastructure and end points for DHS/CBP users and
           electronic communications tools that enables the execution of official duties.
           The Southeast Field LAN consists of 174 geographically dispersed sites using
           more than 6,800 devices connected to the DHS OneNet to provide application
           services to CBP field offices.

       •	 The Network Operations Center (NOC). This center maintains the performance,
           management, and administration capabilities of the CBP core network and all
           CBP field site locations and the underlying supporting environment. In addition,
           the CBP NOC deploys and maintains a network management system and a suite
           of network devices that collect and report real-time information related to the
           overall health of the network. Further, the system enforces approved
           authorizations for controlling the flow of information within the system and
           between interconnected systems (DHS OneNet and CBP Field Sites) in
           accordance with CBP/DHS Sensitive Security Policy.

       •	 The Windows File and Print System (WFPS). This system provides CBP with file
           and printing services using the Microsoft Windows Server 2008 x64 platform.
                  3
       •	 TECS. This system is key for border enforcement and the sharing of information
           about people who are inadmissible or may pose a threat to the security of the
           United States. TECS plays an essential role in the assessment and inspection of
           travelers entering the United States and in supporting the requirements of other
           Federal agencies. TECS supports over 80,000 users from more than 20 Federal
           agencies. TECS interfaces with many law enforcement systems and Federal
           agencies interactively, including the Federal Bureau of Investigation’s National
           Crime Information Center and the International Justice & Public Safety Network.
           Disclosure of information in TECS may be provided to Federal, State, local, tribal,
           and foreign law enforcement, counterterrorism, and border security agencies on
           a case-by-case basis where DHS determines such disclosure is appropriate and
           otherwise consistent with U.S. law, including in the enforcement of certain civil
           or criminal laws.




   3
     Formerly known as the Treasury Enforcement Communications System, TECS is no longer an acronym
   (effective December 19, 2008) and is principally owned and managed by CBP.

www.oig.dhs.gov                                    4	                                          OIG-13-104

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   U.S. Immigration and Customs Enforcement

   ICE's Office of the Special Agent in Charge (SAC) identifies and investigates security
   issues with a foreign nexus at ATL. The SAC's areas of responsibility at ATL include the
   following:

       •	 Investigations of internal criminal conspiracies involving employees of companies
           doing business at ATL;

       •	 Identification, interdiction, and apprehension of currency smugglers traveling
           through ATL;

       •	 Enforcement activities on international drug-smuggling carriers arriving at ATL;

       •	 Enforcement actions that center on the interception of parcels containing illegal
           narcotics and initiation of controlled deliveries on these parcels if appropriate;

       •	 Investigations of illegal workers having unescorted access to secure areas of the
           airport; and

       •	 Investigations aimed at protecting critical infrastructure industries that are
           vulnerable to sabotage, attack, or exploitation.

   The SAC Atlanta Airport Group (AAG) staff supports the ICE Office of Investigations
   mission by providing access to law enforcement data processing resources available
   through DHS OneNet. Interconnectivity with DHS OneNet further enhances the mission
   support capabilities of the SAC AAG by allowing remote access to their users through
   secure virtual private networking and access to the public Internet. Local data
   processing resources directly supported by the SAC AAG are file sharing and print
   services. The ICE locations of the AAG facility at College Park, GA, and the SAC Atlanta
   facility at East Point, GA, were reviewed. ICE staff at these locations use the following
   systems:

       •	 Office of the Chief Information Officer Workstations with File and Print
           Servers (OWFPS). The purpose of the OWFPS system is to provide workstations,
           laptops, print services, and file services to all ICE program areas nationwide.
           Print servers allow ICE users to utilize networked printing. The file servers
           provide a networked file repository for all groups and users. OWFPS reflects all
           nationwide workstations, laptops, file servers, printers, and print servers
           managed by the ICE OCIO IT Field Operations Branch.



www.oig.dhs.gov                                 5	                                         OIG-13-104

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


       •	 ICE Communication over Networks (ICON). ICON is a GSS that provides support
           for all network devices and data communications that employ the infrastructure
           throughout ICE and 287 sites in the continental United States. The authorization
           boundary for the ICON consists of ICE Operations managed switches, firewalls,
           intrusion detection sensors and packet shapers, and ICE Engineering–managed
           WAN optimization appliances. The ICON is connected to the DHS OneNet.

       •	 A communication surveillance and analysis system. The system helps
           Homeland Security Investigations (HSI) staff with intelligence gathering and live
           collection of data in support of its law enforcement mission. Specifically, the
           system assembles historical telephone records and permits searches of warrant
           data from online providers. Additionally, this system is connected to the DHS
           OneNet.

       •	 A standalone electronic surveillance system as part of HSI’s undercover
           operations. The system is not attached to the DHS OneNet. Specifically, the
           system intercepts cell phones, voice mail, and voice pagers, as well as traditional
           landline telephones. The system also intercepts electronic communication, such
           as text messages, email, non-voice computer and Internet transmissions, faxes,
           communications over digital-display paging devices, and satellite transmissions
           (in some cases). The system is authorized for use in accordance with the Wire
           and Electronic Communications Interception and Interception of Oral
           Communication Act (formally known as the "Title III" Wiretap Act,
           18 U.S.C §§ 2510-2520).

   Transportation Security Administration

   TSA’s activities include screening passengers and baggage on all departing flights at ATL.
   To support these activities, TSA has operations in each of the ATL terminals and at a
   nearby office building. We reviewed the following TSA locations:

       •	 Office of the Federal Security Director, Atlanta, GA
       •	 Domestic Terminals (ATL Concourse E and T)
       •	 International Terminal (ATL Concourse F)
       •	 Office of Federal Air Marshal Service (FAMS), College Park, GA

   TSA staff at these locations use the following systems:

       •	 Federal Air Marshal Service Network (FAMSNet). The purpose of FAMSNet GSS
           is to provide an IT infrastructure that supports the FAMS mission. Federal Air
           Marshals are law enforcement officers that help to detect, deter, and defeat


www.oig.dhs.gov                                 6	                                      OIG-13-104

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           hostile acts targeting U.S. air carriers, airports, passengers, and crews. The
           FAMSNet GSS supports the FAMS’ overall critical mission by providing an IT
           infrastructure that facilitates Internet access as well as internal access to FAMS
           information systems including but not limited to email, database access, file
           sharing, printing, and a number of critical administrative and enforcement
           related programs. FAMSNet GSS also provides a communication pathway to
           third-party and government networks such as DHS, TSA, the Federal Aviation
           Administration, Sabre Travel Network, and other State and local law
           enforcement entities. Additionally, this system is connected to the DHS OneNet.

       •	 Infrastructure Core System (ICS). This system provides core services, including
           file and print services, to the entire TSA user community.

       •	 The Security Technology Integrated Program (STIP). The STIP combines many
           different types of components. The STIP components include transportation
           security equipment (TSE), servers and storage, software/application products,
           and databases. A user physically accesses the TSE to perform screening or other
           administrative functions.

       •	 The Transportation Security Administration Network (TSANet). Owing to its
           geographically dispersed topology, the TSANet GSS is considered a WAN. The
           TSANet GSS consists of the WAN backbone and LAN at each site that connects to
           the backbone. The TSANet GSS provides connectivity for airports and their
           users. The TSANet is connected to the DHS OneNet.

   Results of Review
           CBP Did Not Comply Fully With DHS Sensitive System Policies

           CBP did not comply fully with DHS technical, management, and operational
           policies for its servers, routers, and switches operating at ATL. For example, CBP
           and DHS OneNet Information Systems Security Officers (ISSOs) were not reviewing
           audit logs on a weekly basis. CBP also had not implemented corrective action
           plans for high vulnerabilities identified by technical scans of its servers at ATL.4

   4
     The severity level used by the scanning software is derived from the open framework common
   vulnerability scoring system, which is under the custodial care of the Forum of Incident Response and
   Security Teams. The common vulnerability scoring system uses a numerical score from zero to 10 that is
   used by the scanning software to assign a severity level. When the associated score is zero, the severity
   level is "Info." When the associated score is less than four, the severity level is "Low." When the
   associated score is less than seven, the severity level is "Moderate." When the associated score is less
   than 10, the severity level is "High." When the associated score is 10, the severity level is "Critical."

www.oig.dhs.gov                                        7	                                             OIG-13-104

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


            Additionally, CBP had not updated security documentation to include the risks
            associated with the use of out-of-band modems on the DHS OneNet routers
            operating at ATL.5

            CBP’s server rooms contained excess storage and were not always within the
            humidity range established by DHS policies. Additionally, CBP had not
            specifically assigned the responsibility to review audit logs to prevent a network
            outage. Collectively, these deficiencies place at risk the confidentiality, integrity,
            and availability of the data stored, transmitted, and processed by CBP at ATL.

            Technical Controls

            CBP’s implementation of technical controls for systems operating at ATL did not
            conform fully to DHS policies. Specifically, CBP ISSOs were not reviewing audit
            logs on a weekly basis and were not receiving adequate real-time alerts.
            Additionally, identified vulnerabilities on CBP servers were not being resolved in
            a timely fashion.

            Audit Logs and Real-Time Security Alerts

            CBP’s implementation of technical controls for systems operating at ATL did not
            conform fully to DHS policies. For example, while the ISSO for the WFPS was
            reviewing the audit logs and receiving real-time alerts, the ISSOs for the
            Southeast Field LAN and NOC were not reviewing the audit logs on a weekly
            basis. These ISSOs reviewed the audit logs only when there was a problem.
            These ISSOs relied on the Security Operation Center (SOC)/NOC engineers and
            analysts to review the audit logs. Additionally, these ISSOs received real-time
            security alerts from the SOC/NOC.

            CBP stores system event notification message logs, or syslogs, for system and
            network security events on a syslog server that aggregates the logs and
            facilitates auditing.6 However, the Southeast Field LAN and NOC ISSOs did not
            have access to the syslog server. According to CBP staff, they are in the process
            of providing access to the syslog server.


   5
     Out-of-band devices provide access to information systems through network paths that are physically
   separate from those used for operational traffic.
   6
     According to NIST SP 800-92, Guide to Computer Security Log Management: Syslog provides a simple
   framework for log entry generation, storage, and transfer, that any OS [Operating System], security
   software, or application could use if designed to do so. Many log sources either use syslog as their native
   logging format or offer features that allow their log formats to be converted to syslog format.

www.oig.dhs.gov                                         8                                              OIG-13-104

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Additionally, the DHS OneNet ISSO was not reviewing audit logs. Specifically, the
           DHS OneNet ISSO did not have the tools to be able to perform weekly reviews of
           audit logs generated by network routers. Further, the DHS OneNet ISSO was not
           receiving adequate real-time alerts to address identification and resolution of
           possible security events affecting the system.

           The DHS OneNet ISSO team indicated that they received real-time alerts for
           security incidents. However, according to the DHS OneNet ISSO team, the
           threshold used by the SOC for determining which alerts were to be provided was
           not adequate. For example, repeated invalid login attempts, which might
           indicate a possible attack, would not result in a real-time alert from the SOC.

           According to the DHS 4300A Handbook:

                  The DHS ISVM [Information Security Vulnerability Management]
                  Program, managed through the SOC, provides Component CISOs [Chief
                  Information Security Officer]/ISSMs [Information Systems Security
                  Manager] and operational support personnel (e.g., ISSOs, System
                  Administrators) with bulletins, alerts, and technical advisories related to
                  emerging vulnerabilities and threats.

           Also, according to the DHS 4300A Handbook, ISSOs should—

                  Review audit records at least weekly, or in accordance with the SP
                  [Security Plan].

           The SOC reviewed DHS OneNet audit logs on a limited basis. However, these
           reviews were performed on a case-by-case basis, such as when audit events
           require correlation among numerous network devices. Additionally, the SOC did
           not perform reviews of the audit logs on a weekly basis. Further, the DHS
           OneNet ISSO was not provided access to the log aggregation tool to perform
           independent audit log review.

           CBP and the DHS Management Directorate are making progress toward
           providing the necessary tools for the DHS OneNet ISSO to perform weekly audit
           log review. However, full deployment of the centralized audit log review tool
           has been delayed pending availability of sufficient backup storage area network
           infrastructure to ensure redundancy.

           The ISSOs for Southeast Field LAN and the NOC will be able to better identify
           weaknesses and develop corrective action plans by having access to the audit


www.oig.dhs.gov                                 9                                       OIG-13-104

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           logs. Specifically, weekly reviews of audit logs will help identify whether
           problems exist and if corrective actions are required.

           Patch Management

           We scanned CBP’s three servers at ATL for vulnerabilities in November 2012.
           This technical scan identified 13 high vulnerabilities on the three servers. (See
           table 1 for details.) Additionally, patch information for three vulnerabilities was
           published more than 6 months before the scans were performed.

              Table 1. Total Number of High and Critical Vulnerabilities and Instances by
                Common Vulnerabilities and Exposures (CVEs) and Vulnerability Name

                                                                                    Date of Last
           CBP Server            Total Number of          Total Number of          Vulnerability
             Name                      CVEs7                  Unique              Scan Report to
                                                          Vulnerabilities8             DHS9
             Server 1                     9                      3                   06/2012
             Server 2                    31                      5                   06/2012
             Server 3                    31                      5                 Not reported.
              Total:                     71                      13

           According to DHS Directive 4300A:

                    Components shall manage systems to reduce vulnerabilities through
                    vulnerability testing and management, promptly installing patches, and
                    eliminating or disabling unnecessary services.

           Server vulnerabilities that are not mitigated place at risk the confidentiality,
           integrity, and availability of CBP data. These risks include allowing remote code
           execution on CBP’s information systems.


   7
     According to NIST Interagency Report 7298, Revision 1, Glossary of Key Information Security Terms, CVE
   is a dictionary of common names for publicly known information system vulnerabilities.
   8
     The scanning software provides a description of the vulnerabilities. Several CVEs may have the same
   vulnerability description. Additionally, the vulnerability may not have an associated CVE, such as
   “AntiVirus Software Check.”
   9
     The Information Security Scorecard used by DHS to determine compliance with reporting requirements
   obtains eight measures on operational systems, including vulnerability management. For fiscal year 2012,
   the vulnerability management metric was based upon the percentage of systems reporting vulnerability
   scanning results from the total number of reported inventory of operational systems. This column lists
   the date when a vulnerability scan was last reported to the Department for the listed system.

www.oig.dhs.gov                                      10                                             OIG-13-104

                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Management Controls

           CBP’s implementation of management controls for systems operating at ATL did
           not conform fully to DHS policies. Specifically, CBP did not include the risk
           associated with the use of out-of-band modems in the DHS OneNet security
           documentation.

           Out-of-Band Modems

           DHS OneNet service providers use out-of-band devices to provide access to
           information systems through network paths that are physically separate from
           those used for operational traffic. Specifically, these out-of-band devices can be
           used in delivery of router configuration information, firmware, and updates for
           malicious code protection. Additionally, the time necessary to restore network
           connectivity of the DHS OneNet at a field site may be reduced through the use of
           an out-of-band device.

           Figure 1 illustrates an out-of-band device attached to a DHS OneNet router used
           to provide maintenance access in the event of a network failure.




                  Figure 1. Out-of-Band Modem Device Attached to a DHS OneNet Router

           According to CBP and DHS Management Directorate staff, the out-of-band access
           to DHS OneNet routers is controlled and monitored by the telecommunications
           service providers. However, the DHS OneNet Security Plan does not document


www.oig.dhs.gov                                11                                      OIG-13-104

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           the responsibilities and expected behavior of all individuals who use these
           devices to access the DHS OneNet.

           According to the DHS 4300A Handbook:

                  The SP [Security Plan] provides a complete description of an information
                  system, including purposes, functions, system boundaries, architecture,
                  user groups, interconnections, hardware, software, encryption
                  techniques, transmissions, and network configuration. It also provides an
                  overview of the system’s security requirements, describes the controls in
                  place or planned, and delineates the responsibilities and expected
                  behavior of all individuals who access the system.

           Further, the out-of-band modems attached to DHS OneNet routers at ATL were
           observed ready to accept incoming connections. As a result, DHS OneNet
           availability for mission-critical activities may be vulnerable to disruption by
           unauthorized use of these devices.

           According to the DHS 4300A Handbook:

                  Components shall ensure that maintenance ports are disabled during
                  normal system operation and enabled only during approved maintenance
                  activities.

           The always-on status of the out-of-band modems during normal system
           operation creates a risk of misuse of these devices. Misuse of the out-of-band
           devices by telecommunications service provider employees could include attacks
           that affect the availability of critical resources such as email servers, web servers,
           routers, gateways, or other communications infrastructure.

           Operational Controls

           Onsite implementation of operational controls that did not conform fully to DHS
           policies included inadequate humidity controls and excess storage in server
           rooms.

           Environmental Controls

           CBP has three server rooms at ATL. Based on CBP’s humidity reading at the time
           of our test, only one of the three server rooms was within the humidity range
           recommended by the DHS 4300A Handbook. Additionally, CBP did not have a


www.oig.dhs.gov                                 12                                        OIG-13-104

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           device to measure humidity in one of the server rooms. Further, according to
           our humidity and temperature measurements, all three server rooms did not
           meet DHS humidity standards and two did not meet DHS temperature standards.
           See table 2 for details.

                          Table 2. CBP Server Room Humidity and Temperature

                   Location                         Humidity                     Temperature
                                                CBP          OIG10              CBP       OIG
        157 Tradeport Drive                     23%          18.5%              70°      77.7°
        Field Office – Phoenix Blvd.          No device      23.4%              70°      76.9°
        Concourse E                             45%          24.1%              70°      68.7°

           According to CBP staff, the Office of Inspector General (OIG) temperature and
           humidity readings were taken within the IT racks and were not indicative of the
           room conditions as a whole. However, CBP will work with the General Services
           Administration to control the temperature and humidity in the server and
           network rooms at ATL. In addition, CBP staff stated that server rooms at the
           Field Inspection Service are owned by the City of Atlanta and installation of
           temperature and humidity sensors require coordination with the City of Atlanta.
           CBP and the Port Office are in the process of working with the City of Atlanta to
           get permission to install these devices in the server rooms located at the airport.

           According to the DHS 4300A Handbook:

                    The following should be considered when developing a strategy for
                    temperature and humidity control:

                        •	 Temperatures in computer storage areas should be held between
                            60 and 70 degrees Fahrenheit.
                        •	 Humidity should be at a level between 35 percent and 65 percent.

           Also, several server and network rooms were being used for excess storage.
           Specifically, some rooms had shelves with supplies, including cleaning solutions.




   10
     OIG staff measured the humidity and temperature at the front of racks containing information
   technology equipment in the identified DHS server rooms.

www.oig.dhs.gov                                      13                                      	      OIG-13-104

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




            Figures 2a and 2b. Before and After Pictures of Storage in a CBP Server Room

           According to the DHS 4300A Handbook:

                    In addition to the physical security controls... facility managers and
                    security administrators must also ensure that environmental controls are
                    established, documented, and implemented to provide needed
                    protection in the following areas:

                        •	 Housekeeping protection from dirt and dust
                        •	 Combustible cleaning supplies protection (not to be kept in
                            computer areas).

           According to CBP staff, CBP is in the process of modifying space at ATL. CBP
           expects to have the server and network rooms cleaned within the next 30 days.
           For example, CBP has cleaned up excess debris, boxes, and hazardous items at
           two of its server rooms.

           Systems Availability Project

           On August 11, 2007, Los Angeles International Airport (LAX) experienced a
           network outage that hindered operation at LAX for approximately 10 hours and
           affected more than 17,000 passengers. We reported in May 2008 that the
           outage occurred because CBP devices at LAX were flooded with electronic
           messages, a “broadcast storm,” from within the CBP LAN at LAX.11 We
           recommended actions that CBP could implement to manage network outages
           more effectively. These recommendations included enhancing router logs and
           establishing automatic error notification messages. We also recommended that
           CBP determine whether their actions taken at LAX should also be taken at other
           ports of entry.


   11
     Lessons Learned from the August 11, 2007, Network Outage at Los Angeles International Airport, May
   2008, OIG-08-58.

www.oig.dhs.gov                                     14                                      	     OIG-13-104

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           According to CBP staff, they have taken a number of steps to implement these
           recommendations. These actions included the development of the System
           Availability Project (SAP), which was established in order to implement
           corrective action at other CBP Ports of Entry. SAP-related actions at ATL included
           upgrades to switches, cable, and fiber. CBP also upgraded connectivity at ATL by
           installing redundant telecommunications lines with increased bandwidth.

           CBP also has 20 Portable Automated Lookout System (PALS) laptops at ATL that
           can be used to process passengers if an outage occurs. Additionally, CBP has
           ordered additional laptop batteries and 30 more PALS laptops to increase its
           passenger processing capability during outages. Further, CBP passenger
           processing areas are part of ATL’s emergency generator circuit. This emergency
           generator can provide power for up to 48 hours.

           Although CBP has made improvements and upgrades at ATL to prevent future
           outages, it has not fully implemented the recommendations from our report.
           For example, CBP is not reviewing automated Dynamic Host Configuration
           Protocol (DHCP) server messages.12 According to CBP staff, they are not
           reviewing these messages because there is no specific policy requiring the
           monitoring of DHCP messages. Additionally, the SOC is not monitoring ATL LAN
           audit logs to prevent a similar network outage as occurred at LAX. According to
           SOC staff, reviewing of the LAN audit logs is not their primary responsibility.

           Recommendations

           We recommend that the CBP Chief Information Officer (CIO):

           Recommendation #1:

           Provide ISSOs with real-time security alerts and the capability to review audit logs.

           Recommendation #2:

           Resolve high system vulnerabilities in a timely fashion.




   12
    According to NIST SP 800-86, Guide to Integrating Forensic Techniques into Incident Response, “The
   DHCP service assigns IP addresses to hosts on a network as needed.”

www.oig.dhs.gov                                      15                                             OIG-13-104

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #3:

           Update the DHS OneNet Security Plan to document the risks associated with the
           use of out-of-band modems attached to DHS OneNet routers.

           Recommendation #4:

           Obtain temperature and humidity sensors for the ATL server rooms, and
           maintain them within the temperature and humidity ranges established by the
           DHS 4300A Handbook.

           Recommendation #5:

           Maintain ATL server and network rooms free of excess storage and hazardous
           items that may cause damage to the system.

           Recommendation #6:

           Assign the responsibility to review DHCP server automatic messages and ATL
           LAN audit logs.

           Management Comments and OIG Analysis

           We obtained written comments on a draft of this report from the Assistant
           Director, Departmental Government Accountability Office (GAO)-OIG Audit
           Liaison. We have included a copy of the comments in their entirety at
           appendix B. DHS concurred with recommendations 1 through 6. Additionally,
           CBP has already taken actions to resolve reported deficiencies. Further, CBP has
           provided documentation to support the resolution and closure of
           recommendation 5. Recommendations 1 through 4 and recommendation 6 are
           considered resolved, but open pending verification of all planned actions.

           Recommendation #1:

           CBP concurs and agrees to provide the ISSOs with access to the appropriate logs.
           Additionally, a standard operating procedure for reviewing logs on a weekly
           basis is being developed.




www.oig.dhs.gov                               16                                      OIG-13-104

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           CBP’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until CBP provides documentation to
           support that the planned corrective actions have been completed.

           Recommendation #2:

           CBP concurs and agrees to continue to patch system vulnerabilities in a timely
           manner, and also to ensure that outstanding patches are implemented.

           CBP’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until CBP provides documentation to
           support that the planned corrective actions have been completed.

           Recommendation #3:

           CBP concurs and has updated the DHS OneNet Security Plan to include the use of
           out-of-band modems. CBP will also document the risks associated with the use
           of out-of-band modems attached to DHS OneNet routers.

           CBP’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until CBP provides documentation to
           support that the planned corrective actions are completed.

           Recommendation #4:

           CBP concurs and has procured a device that measures humidity. CBP has already
           tested this device at one location and plans to complete similar installations in all
           server rooms. The estimated completion date for this recommendation is
           August 30, 2013.

           CBP’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until CBP provides documentation to
           support that the planned corrective actions are completed.

           Recommendation #5:

           CBP concurs and has removed excess storage and hazardous items from each of
           the identified server and network rooms. CBP also began inspecting the rooms
           for clutter and hazardous items and will continue doing so on a monthly basis. In
           addition, CBP is using a checklist to document the inspections. Network rooms



www.oig.dhs.gov                                 17                                       OIG-13-104

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           maintained by others are also being checked periodically. CBP requested that
           the OIG close recommendation 5.

           Following receipt of the draft report, CBP provided all requested documentation
           to support actions taken. CBP’s actions satisfy the intent of this
           recommendation. This recommendation is considered resolved and closed.

           Recommendation #6:

           CBP concurs and will research, clarify, monitor, and enforce responsibilities for
           the review of the DHCP server automatic messages and ATL LAN audit logs.

           CBP’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until CBP provides documentation to
           support that the planned corrective actions are completed.

           ICE Did Not Comply Fully With DHS Sensitive System Policies

           ICE did not comply fully with DHS technical, management, and operational
           policies for its servers, routers, and switches operating at ATL. For example, the
           ISSO for the ICON system was not reviewing audit logs on a weekly basis. ICE
           also had not implemented software patches for critical and high vulnerabilities
           and was not regularly scanning its servers at ATL. Additionally, ICE had not
           completed the process to authorize the ICON system to operate. Further, not all
           ICE servers at ATL were accounted for as part of a Federal Information Security
           Management Act of 2002 (FISMA), as amended, inventoried system.

           ICE did not have escort procedures in place for its multiuse server room.
           Additionally, ICE’s server rooms were not always within the temperature range
           established by DHS policies. Further, ICE had not determined whether
           redundant data telecommunications lines at these locations were warranted.
           Collectively, these deficiencies place at risk the confidentiality, integrity, and
           availability of the data stored, transmitted, and processed by ICE at ATL.

           Technical Controls

           ICE’s implementation of technical controls for systems operating at ATL did not
           conform fully to DHS policies. For example, the ICON ISSO was not receiving
           real-time security alerts and was not reviewing audit logs on a weekly basis.
           Also, identified vulnerabilities on ICE servers were not being resolved in a timely



www.oig.dhs.gov                                 18                                       OIG-13-104

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           fashion. Further, not all ICE servers at ATL were being regularly scanned for
           vulnerabilities.

           Audit Logs and Real-Time Security Alerts

           The OWFPS ISSO reviews system audit logs on a weekly basis and receives
           real-time security alerts. The ICON ISSO was not reviewing the audit logs and
           was not receiving real-time security alerts. Specifically, the ICON ISSO did not
           have access to the system directory, which contains the real-time security alerts.

           According to the DHS 4300A Handbook, ISSOs should:

                  Review audit records at least weekly, or in accordance with the SP
                  [Security Plan].

           Additionally, according to the DHS 4300A Handbook:

                  The DHS ISVM Program, managed through the SOC, provides Component
                  CISOs/ISSMs and operational support personnel (e.g., ISSOs, System
                  Administrators) with bulletins, alerts, and technical advisories related to
                  emerging vulnerabilities and threats.

           According to ICE staff, upon completion of the ICON security authorization, they
           will develop procedures to capture specific events in the audit logs. ICE staff will
           then review the audit logs on a weekly basis. Additionally, the ICON ISSO is
           taking steps to acquire access to the real-time security alerts.

           Reviewing audit logs and receiving real-time alerts would provide the ICON ISSO
           with early warning advisories on security attacks, along with information on the
           most recent viruses.

           Patch Management

           We scanned ICE’s three servers at ATL for vulnerabilities in December 2012. This
           technical scan identified 1 critical and 28 high vulnerabilities on the three
           servers. (See table 3 for details.)




www.oig.dhs.gov                                 19                                       OIG-13-104

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


               Table 3. Total Number of High and Critical Vulnerabilities and Instances by 

                                    CVEs and Vulnerability Name


                                                                Total Number of             Date of Last
                  ICE Server Name          Total Number             Unique               Vulnerability Scan
                                              of CVEs            Vulnerabilities          Report to DHS
                  Server 1                       15                    6                        12/2012
                  Server 2                       29                    15                       01/2012
                  Server 3                       47                    8                        12/2012
                        Total:                   91                    29

            These vulnerabilities place ICE systems at risk of malicious code execution, buffer
            overflows, and unauthorized access.13 Additionally, some of the identified
            vulnerabilities date back to 2009.

            According to DHS Directive 4300A:

                     Components shall manage systems to reduce vulnerabilities through
                     vulnerability testing and management, promptly installing patches, and
                     eliminating or disabling unnecessary services.

            According to ICE staff, the critical vulnerability identified was resolved during our
            audit fieldwork. Additionally, ICE staff has informed us that they have taken
            steps to resolve the identified high vulnerabilities. For example, as of February
            2013, only two high vulnerabilities had not been resolved.

            Server vulnerabilities that are not mitigated place at risk the confidentiality,
            integrity, and availability of ICE data. These risks include allowing remote code
            execution on ICE’s information systems.




   13
     NIST defines a buffer overflow as a condition at an interface under which more input can be placed into
   a buffer or data holding area than the capacity allocated, overwriting other information. Attackers exploit
   such a condition to crash a system or insert specially crafted code that lets them gain control of the system.

www.oig.dhs.gov                                         20                                               OIG-13-104

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           ICE Servers Were Not Regularly Scanned for Vulnerabilities

           The HSI SAC Atlanta electronic surveillance system servers had not been scanned
           for vulnerabilities. Specifically, the ICE SOC does not perform vulnerability
           assessments on these servers, as they are not connected to the DHS OneNet.
           Although this surveillance system is not connected to the DHS OneNet, the
           protection of sensitive law enforcement data may be at risk if the servers are not
           regularly scanned for vulnerabilities.

           Additionally, ICE officials had experienced difficulties performing vulnerability
           scans on the three other ICE servers at ATL. Specifically, vulnerability scans
           performed since February 2012 were not always completed. According to ICE
           staff this issue was resolved during our fieldwork.

           According to the DHS 4300A Handbook:

                  Components shall conduct vulnerability assessments and/or testing to
                  identify security vulnerabilities on information systems containing
                  sensitive information annually or whenever significant changes are made
                  to the information systems.

           ICE officials are actively working with CBP to resolve the identified vulnerability
           scanning problem. Additionally, ICE officials have also submitted a request to
           their SOC to remediate all critical and high SAC Atlanta and AAG server
           vulnerabilities identified in December 2012.

           Management Controls

           ICE’s implementation of management controls for systems operating at the SAC
           Atlanta and AAG facilities did not conform fully to DHS policies. Specifically, ICE
           had not completed the security authorization activities for the ICON system.
           Additionally, ICE had not updated its interconnection security agreement (ISA)
           with the DHS OneNet to include the OWPFS and ICON systems. Further, ICE had
           not accounted for each server at ATL as part of a FISMA-inventoried system.




www.oig.dhs.gov                                 21                                        OIG-13-104

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


            Security Authorization of ICON

            ICE had not completed the security authorization activities for the ICON network
            infrastructure system. As we reported in March 2012, ICE officials are in the
            process of establishing a security authorization package for their network
            infrastructure.14 ICON security assessment review activities began in November
            2012 and the authorization to operate is expected to be issued in January 2013.

            According to DHS 4300A Handbook:

                     Components shall authorize systems at Initial Operating Capability and
                     every three (3) years thereafter, or whenever a major change occurs,
                     whichever occurs first.

            Without performing security authorization activities, ICE officials cannot ensure
            that they are aware of the vulnerabilities and threats to the system. Additionally,
            appropriate information security controls might not be established for ICON.

            Interconnection Security Agreements

            ICE had not updated its ISA with the DHS OneNet to include the OWFPS and
            ICON systems.

            According to DHS Directive 4300A:

                     Components shall document all interconnections to the DHS OneNet with
                     an ISA signed by the OneNet AO [Authorizing Official] and by each
                     appropriate AO.

            As we reported in March 2012, ICE officials are establishing security
            authorization packages for their workstations, file and print servers, and network
            infrastructure.15 However, the ISAs had not been completed. An updated ISA
            will help ICE officials more effectively document the security protections that
            must operate on interconnected systems.




   14
      Technical Security Evaluation of DHS Activities at Chicago O’Hare International Airport – Sensitive 

   Security Information, OIG-12-45, March 2012.

   15
      Ibid.


www.oig.dhs.gov                                         22                                                OIG-13-104

                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           The HSI Server Is Not Part of the FISMA System Inventory

           ICE had not individually accounted for the server hosting HSI’s communications
           analysis and surveillance system as part of a recognized system in the
           Department’s FISMA inventory. According to ICE staff, ICE officials decided in
           2006 that this server was part of the component network infrastructure and that
           separate security authorization activities were not necessary for this application.
           However, ICE now plans to include the HSI servers as part of the ICE Subpoena
           System, a FISMA-inventoried system.

           According to DHS Directive 4300A:

                  Each DHS computing resource (desktop, laptop, server, portable
                  electronic device, etc.) shall be individually accounted for as part of a
                  FISMA-inventoried information system.

           Operational Controls

           Onsite implementation of operational controls that did not conform fully to DHS
           policies included escort procedures for its multiuse server room, inadequate
           temperature and humidity controls in ATL server rooms, and redundant data
           telecommunications.

           Physical Security

           ICE’s HSI server room at ATL houses several sensitive IT devices, including a wire-
           tapping system, a tactical communication system, the building closed-circuit
           television security system, a contractor-serviced office telephone system (e.g.,
           Private Branch exchange), a U.S. State Department digital subscriber line, and
           two computer network switches that link various devices in the SAC Atlanta
           offices. However, ICE does not have procedures to restrict access to the room to
           authorized personnel.

           According to DHS Directive 4300A:

                  Access to DHS buildings, rooms, work areas, spaces, and structures
                  housing information systems, equipment, and data shall be limited to
                  authorized personnel.

           According to ICE staff, HSI controls physical access to the server room by
           electronic entry through the facility security system. Access to the server room


www.oig.dhs.gov                                23                                        OIG-13-104

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           is limited to 10 full-time employees. Additionally, HSI officials agreed with our
           concerns on the need for improved physical security controls. Unauthorized
           access to sensitive law enforcement information systems could cause disclosure,
           disruption, modification, or destruction of information and information systems
           that support agency operations and assets.

           Environmental Controls

           ICE has three server rooms at ATL. According to our temperature and humidity
           measurements, all three server rooms did not meet DHS temperature and
           humidity standards. (See table 4 for details.)

                         Table 4. ICE Server Rooms Humidity and Temperature

            Location                                       Humidity                Temperature
                                                         ICE      OIG            ICE        OIG
            SAC Atlanta HSI Computer Room               25%      31.3%            70       75.5
                                                            16
            AAG – Main Computer Room                    N/A      31.3%            73       75.4
            SAC Atlanta Computer Room                   41%       13%             71        77

           According to the DHS 4300A Handbook:

                   The following should be considered when developing a strategy for
                   temperature and humidity control:

                   •	 Temperatures in computer storage areas should be held between
                      60 and 70 degrees Fahrenheit.
                   •	 Humidity should be at a level between 35 percent and 65 percent.

           According to ICE staff, the temperature in the HSI server room can be high as
           90 degrees in the summer. Additionally, according to ICE staff, this server room
           includes more IT equipment from other entities than was originally intended.
           ICE is in negotiations with the facility landlord to make improvements.

           Additionally, one server room did not have a smoke detector. Further, a server
           room was being used for storage of non-IT assets. However, during our review
           fieldwork, ICE removed the excess storage from this location. (See figures 3a
           and 3b for details.)

   16
     We could not confirm the AAG computer room sensor humidity reading as we did not have access to
   the device.

www.oig.dhs.gov                                    24                                     	     OIG-13-104

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security




                        Figures 3a and 3b. Before and After Pictures of
                            Storage in Room With ICE IT Equipment

           According to the DHS 4300A Handbook:

                  In addition to the physical security controls…facility managers and
                  security administrators must also ensure that environmental controls are
                  established, documented, and implemented to provide needed
                  protection in the following areas:

                      •	 Housekeeping protection from dirt and dust
                      •	 Combustible cleaning supplies protection (not to be kept in
                          computer areas).

           ICE officials agree that non-IT assets should not be stored in rooms with IT assets
           and have agreed to clean the rooms.

           Redundant Data Telecommunications Services

           ICE had not established redundant telecommunications services at its SAC
           Atlanta facility. Specifically, only one data telecommunications line services the
           SAC Atlanta server rooms and approximately 200 users at the facility. As a
           result, performance of mission-critical activities at this location is vulnerable to
           disruptions in the event of a data telecommunications line failure.




www.oig.dhs.gov                                 25                                  	     OIG-13-104

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           According to DHS 4300A Handbook Attachment M, Tailoring the NIST SP 800�53
           Security Controls:

                  Risk and Infrastructure – A risk-based management decision is made on
                  the requirements for telecommunication services. The availability
                  requirements for the system will determine the time period within which
                  the system connections must be available. If continuous availability is
                  required, redundant telecommunications services may be an option.

           Recommendations

           We recommend that the ICE CIO:

           Recommendation #7:

           Provide ISSOs with real-time security alerts and the capability to review audit logs.

           Recommendation #8:

           Resolve high system vulnerabilities in a timely fashion.

           Recommendation #9:

           Scan all ICE servers at the SAC Atlanta and AAG sites annually.

           Recommendation #10:

           Complete security authorization activities for the ICON system.

           Recommendation #11:

           Update the ICE ISA with the DHS OneNet to include the OWFPS and ICON systems.

           Recommendation #12:

           Complete activities to include the HSI communications analysis and surveillance
           system server as part of a recognized FISMA-inventoried system.




www.oig.dhs.gov                                 26                                        OIG-13-104

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation #13:

           Obtain smoke detectors for the server rooms at ATL, and also maintain the
           server rooms within the temperature and humidity ranges established by the
           DHS 4300A Handbook.

           Recommendation #14:

           Determine whether it is necessary and cost-effective to establish redundant data
           telecommunications services at the SAC Atlanta facility.

           Management Comments and OIG Analysis

           We obtained written comments on a draft of this report from the Assistant
           Director, Departmental GAO-OIG Audit Liaison. We have included a copy of the
           comments in their entirety at appendix B. DHS concurred with
           recommendations 7 through 14. Additionally, ICE has already taken actions to
           resolve reported deficiencies. Recommendations 7 through 14 are considered
           resolved, but open pending verification of all planned actions.

           Recommendation #7:

           ICE concurs and will provide ISSOs with the capability to review audit logs.
           Specifically, ICE’s Information Assurance Division is working with the ICE NOC to
           implement this capability.

           ICE’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until ICE provides documentation to
           support that the planned corrective actions are completed.

           Recommendation #8:

           ICE concurs and has published the Plan of Action and Milestone Management
           Process, which describes the steps taken by an ISSO to proactively monitor and
           manage the remediation of system vulnerabilities. In addition, ICE OCIO is in the
           process of developing an Enterprise Level Configuration Management Plan that
           will address resolution of high system vulnerabilities.

           ICE’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until ICE provides documentation to
           support that the planned corrective actions are completed.


www.oig.dhs.gov                                27                                      OIG-13-104

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation #9:

           ICE concurs and will scan their servers prior to the end of the fiscal year. In
           addition, information about the vulnerability scans for the SAC Atlanta and AAG
           will be addressed in ICE’s Vulnerability Assessment Test Program. The estimated
           completion date for this recommendation is September 30, 2013.

           ICE’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until ICE provides documentation to
           support that the planned corrective actions are completed.

           Recommendation #10:

           ICE concurs and will initiate the security controls assessment for ICON in May
           2013 in order to obtain an Authority to Operate. ICE’s actions satisfy the intent
           of this recommendation. This recommendation is considered resolved, but will
           remain open until ICE provides documentation to support that the planned
           corrective actions are completed.

           Recommendation #11:

           ICE concurs and has agreed to update the ICE ISA with the DHS OneNet once the
           Authorization to Operate for ICON is in place. The estimated completion date for
           this recommendation is September 30, 2013.

           ICE’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until ICE provides documentation to
           support that the planned corrective actions are completed.

           Recommendation #12:

           ICE concurs and will complete activities to include the HSI communications
           analysis and surveillance system server as part of the ICE Subpoena System
           Security Authorization package.

           ICE’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until ICE provides documentation to
           support that the planned corrective actions are completed.




www.oig.dhs.gov                                28                                       OIG-13-104

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Recommendation #13:

           ICE concurs and will obtain and install smoke detectors for the server rooms at
           ATL, as well as maintain the server rooms within the temperature and humidity
           ranges established by the DHS 4300A Handbook.

           ICE’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until ICE provides documentation to
           support that the planned corrective actions are completed.

           Recommendation #14:

           ICE concurs and will conduct an internal assessment of current
           telecommunications and data systems to determine if a redundant system is
           necessary and cost-effective for this facility.

           ICE’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until ICE provides documentation to
           support that the planned corrective actions are completed.

           TSA Did Not Comply Fully With DHS Sensitive System Policies

           TSA did not comply fully with DHS technical, management, and operational
           policies for its servers, routers, and switches operating at ATL. For example,
           three TSA ISSOs were not receiving real-time security alerts and were not
           reviewing audit logs on a weekly basis. TSA also had not implemented software
           patches for high vulnerabilities and was not regularly scanning all its servers at
           ATL. Additionally, TSA had not updated security documentation to include
           business impact assessments (BIAs) for the IT systems operating at ATL.

           TSA’s FAMS server room did not have a smoke detector and contained excess
           storage. Further, TSA did not have redundant data telecommunications lines
           providing service to its ATL facilities. Collectively, these deficiencies place at risk
           the confidentiality, integrity, and availability of the data stored, transmitted, and
           processed by TSA at ATL.

           Technical Controls

           TSA’s implementation of technical controls for systems operating at ATL did not
           conform fully to DHS policies. For example, three TSA ISSOs were not reviewing
           audit logs on a weekly basis and were not receiving real-time alerts.


www.oig.dhs.gov                                  29                                         OIG-13-104

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           Additionally, identified vulnerabilities on TSA servers had not been resolved in a
           timely fashion. Further, not all TSA servers at ATL were being regularly scanned
           for vulnerabilities.

           Audit Logs and Real-Time Alerts

           The FAMSNet ISSO reviews audit logs on a weekly basis and receives real-time
           security alerts.17 However, TSA ISSOs for the TSANet, ICS, and STIP were not
           receiving real-time security alerts. In addition, these ISSOs were not performing
           weekly monitoring of system audit logs.

           According to TSA staff, the SOC is responsible for monitoring the audit logs.
           Incidents are reported to the ISSOs when the incident is escalated from the SOC.
           Additionally, the audit logs are sent to a platform to which the TSANet ISSO does
           not have remote access.

           According to the DHS 4300A Handbook, ISSOs should—

                    Review audit records at least weekly, or in accordance with the SP
                    [Security Plan].

           Additionally, according to the DHS 4300A Handbook:

                    The DHS ISVM Program, managed through the SOC, provides Component
                    CISOs/ISSMs and operational support personnel (e.g., ISSOs, System
                    Administrators) with bulletins, alerts, and technical advisories related to
                    emerging vulnerabilities and threats.

           Access to real-time alerts would provide the TSA ISSOs with early warning
           advisories on security attacks, along with information on the most recent viruses.




   17
     According to the FAMSNet ISSO, the real-time alerts are limited to “all or nothing” alerting, and a more
   scalable solution providing specific alerts based on criticality would be more efficient and useful.

www.oig.dhs.gov                                        30                                              OIG-13-104

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Patch Management

           We scanned TSA FAMS’ two servers at ATL for vulnerabilities in December 2012.
           This technical scan identified a high vulnerability on one of the servers. (See
           table 5 for details.)

                      Table 5. Total Number of High Vulnerabilities and Instances by 

                                       CVEs and Vulnerability Name


           TSA FAMS           Total Number           Total Number of               Date of Last
          Server Name            of CVEs                 Unique                 Vulnerability Scan
                                                      Vulnerabilities            Report to DHS
             Server 1                 1                     1                     Not reported.

           According to DHS Directive 4300A:

                    Components shall manage systems to reduce vulnerabilities through
                    vulnerability testing and management, promptly installing patches, and
                    eliminating or disabling unnecessary services.

           In February 2013, TSA FAMS staff informed us that the identified high
           vulnerability has been partially resolved, and will be completely resolved shortly.

           Vulnerability Scans

           STIP devices at ATL include servers that are used to facilitate image transfer to
           remote viewing stations. These STIP servers are not connected to TSANet and
           have not been scanned for vulnerabilities.

           According to TSA staff, the first scan for STIP devices is tentatively scheduled for
           May 2013. These scans will provide a baseline after their initial hardening.18 Any
           findings will be tracked and checked during integration testing, tentatively
           scheduled for July 2013. All findings must be adjudicated before placing the
           machines onto the TSANet.



   18
     According to the DHS 4300 Handbook, “The DHS CISO has published secure baseline configuration
   guides for several operating systems, the Oracle 9i database management system, and CISCO routers, and
   will provide additional configuration guides as required. Hardening guides provide system and database
   administrators with a clear, concise set of procedures that shall ensure a minimum baseline of security in
   the installation and configuration of the hardware and software.”

www.oig.dhs.gov                                       31                                              OIG-13-104

                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           According to the DHS 4300A Handbook:

                  Components shall conduct vulnerability assessments and/or testing to
                  identify security vulnerabilities on information systems containing
                  sensitive information annually or whenever significant changes are made
                  to the information systems.

           Management Controls

           TSA’s implementation of management controls for systems operating at ATL did
           not conform fully to DHS policies. Specifically, TSA had not completed BIAs for
           these systems, in that only TSANet contains a BIA in its Continuity Plan.

           According to DHS 4300A Handbook:

                  The Business Impact Assessment (BIA) is essential in the identification of
                  critical DHS assets.

           The BIA helps to identify and prioritize critical IT systems and components. BIAs
           are also essential for contingency planning. For example, a BIA would allow TSA
           to identify maximum tolerable downtime, the resources required to resume
           mission/business processes, and recovery priorities for system resources.
           Without performing a BIA, TSA cannot ensure that its backup and recovery plans
           meet the needs of the business owners (e.g., recovery time objective and
           recovery point objective).

           Operational Controls

           Onsite implementation of operational controls that did not conform fully to DHS
           policies included excess storage, inadequate temperature and humidity controls,
           and the need for a smoke detector in the TSA server room at ATL. Additionally,
           TSA’s IT assets at ATL do not have redundant data telecommunications.

           Environmental Controls

           TSA’s FAMS server room at ATL did not have a smoke detector. Additionally,
           there was excess storage in this room. However, after our fieldwork, TSA took
           actions to clean up the server room. (See figures 4a and 4b for details.)




www.oig.dhs.gov                               32                                       OIG-13-104

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security




                              Figures 4a and 4b. TSA FAMS Server Room

           According to the DHS 4300A Handbook:

                  In addition to the physical security controls…facility managers and
                  security administrators must also ensure that environmental controls are
                  established, documented, and implemented to provide needed
                  protection in the following areas:

                      •	 Housekeeping protection from dirt and dust
                      •	 Combustible cleaning supplies protection (not to be kept in
                          computer areas)

           Redundant Data Telecommunications Services

           TSA has not established redundant telecommunications services at the terminals
           at ATL. Specifically only one data telecommunications circuit services TSA users
           at the North, South, and International Terminals. As a result, performance of
           mission activities at these locations is vulnerable to disruptions in the event of a
           data telecommunications circuit failure.

           According to DHS 4300A Handbook Attachment M, Tailoring the NIST SP 800�53
           Security Controls:

                  Risk and Infrastructure – A risk-based management decision is made on
                  the requirements for telecommunication services. The availability
                  requirements for the system will determine the time period within which
                  the system connections must be available. If continuous availability is
                  required, redundant telecommunications services may be an option.



www.oig.dhs.gov                                 33                                 	     OIG-13-104

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           According to TSA staff, adequate redundancy at ATL includes alternate means to
           access email and a separate voice circuit for their phones. Additionally, their
           continuity of operations plans contain detailed information on the continuity of
           mission-essential functions in the event that normal operations are severely
           disrupted.

           Recommendations

           We recommend that the TSA CIO:

           Recommendation #15:

           Provide ISSOs with real-time security alerts and the capability to review audit logs.

           Recommendation #16:

           Continue efforts to resolve the identified high system vulnerability according to
           its associated plans of actions and milestones.

           Recommendation #17:

           Scan all TSA servers annually.

           Recommendation #18:

           Prepare the BIAs for the identified TSA systems operating at ATL.

           Recommendation #19:

           Obtain a smoke detector for the FAMS server room at ATL.

           Recommendation #20:

           Determine whether it is necessary and cost-effective to establish redundant data
           telecommunications services at TSA’s ATL terminal locations.

           Management Comments and OIG Analysis

           We obtained written comments on a draft of this report from the Assistant
           Director, Departmental GAO-OIG Audit Liaison. We have included a copy of the
           comments in their entirety at appendix B. DHS concurred with


www.oig.dhs.gov                                 34                                        OIG-13-104

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           recommendations 15 through 20. Additionally, TSA has already taken actions to
           resolve reported deficiencies. Recommendations 15 through 19 are considered
           resolved, but open pending verification of all planned actions. Further, TSA has
           provided documentation to support the resolution and closure of
           recommendation 20.

           Recommendation #15:

           TSA concurs with this recommendation. According to TSA (1) their SOC receives
           system log entries, all of which are correlated into audit logs of system events;
           (2) the SOC acts as an agent for the ISSOs to perform this function; and (3) all
           TSA ISSOs have full access to the SOC to observe system events in real time.
           Further, TSA ISSOs have the capability to perform historical queries on their
           systems. TSA requested OIG closure of recommendation 15.

           However, during audit fieldwork, TSA ISSOs for the TSANet, ICS, and STIP were
           not receiving real-time security alerts. In addition, these ISSOs were not
           performing weekly monitoring of system audit logs as they did not have access
           to the ATL LAN audit logs. This recommendation is considered resolved, but will
           remain open until TSA provides documentation that the ISSOs are receiving
           real-time security alerts and have the audit log access required.

           Recommendation #16:

           TSA concurs with this recommendation. According to TSA, the one vulnerability
           noted required two steps to remediate and both steps were completed as of
           April 10, 2013. TSA requested that OIG close recommendation 16.

           TSA provided documentation supporting that corrective actions had been taken
           for step 1 of this recommendation. However, TSA has not provided adequate
           supporting documentation to allow us to verify that step 2 was completed.

           TSA’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until TSA provides documentation to
           support that the planned corrective actions are completed.

           Recommendation #17:

           TSA concurs and will include scanning of TSA multiplexed servers as part of the
           scheduled Technical Vulnerability Audits conducted at airports annually. The



www.oig.dhs.gov                                35                                      OIG-13-104

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Technical Vulnerability Audits will begin June 2013 and continue on a scheduled
           basis.

           TSA’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until TSA provides documentation to
           support that the planned corrective actions are completed.

           Recommendation #18:

           TSA concurs and will prepare BIAs for the identified systems operating at ATL.
           Additionally, BIA templates have been distributed to system owners and ISSOs.
           The estimated completion date for this recommendation is April 30, 2014.

           TSA’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until TSA provides documentation to
           support that the planned corrective actions are completed.

           Recommendation #19:

           TSA concurs and has implemented environmental monitoring for temperature
           and humidity thresholds for the FAMS server room. However, according to TSA,
           adding smoke detectors will require additional research and coordination to
           determine the impact on the office lease, funding sources, and local building and
           fire codes. TSA will begin work with facilities management immediately, and the
           completion date will be contingent upon the complexity of implementation.

           TSA’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved, but will remain open until TSA provides documentation to
           support that the planned corrective actions are completed.

           Recommendation #20:

           TSA concurs with this recommendation. In response to it, TSA performed an
           analysis to determine whether it is necessary and cost-effective to establish
           redundant data telecommunications services at TSA’s ATL terminal location. TSA
           has determined that it would not be cost-effective to implement the
           redundancies. TSA requested that OIG close recommendation 20.

           TSA’s actions satisfy the intent of this recommendation. This recommendation is
           considered resolved and closed.



www.oig.dhs.gov                               36                                      OIG-13-104

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This review is part of an ongoing program to evaluate the implementation of DHS
   technical and information security policies and procedures at DHS sites. The objective
   of this program is to determine the extent to which critical DHS sites comply with the
   Department’s technical and information security policies and procedures, according to
   DHS Directive 4300A and its companion document, the DHS 4300A Handbook. Our
   primary focus was on evaluating the security controls over the servers, routers,
   switches, and telecommunications circuits of the DHS IT infrastructure at this site.

   We coordinated the implementation of this technical security evaluation program with
   the DHS Chief Information Security Officer. We interviewed CBP, ICE, TSA, and DHS
   Management Directorate staff. We conducted site visits of CBP, ICE, and TSA facilities at
   and near ATL. We compared the DHS IT infrastructure that we observed onsite with the
   documentation provided by the auditees.

   We reviewed documentation contained in the Trusted Agent-FISMA system to ensure
   that it is current. We reviewed documentation such as the authority-to-operate letter,
   contingency plans, and BIAs. Additionally, we reviewed guidance provided by DHS to
   the components in the areas of system documentation, patch management, and
   wireless security. We reviewed applicable DHS and component policies and procedures,
   as well as government-wide guidance. We gave briefings and presentations to DHS staff
   concerning the results of fieldwork and the information summarized in this report.19

   We conducted this performance audit between September 2012 and February 2013
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.

   19
     During our audit fieldwork, we identified additional data telecommunications lines. We are still working
   with CBP and ICE to determine whether these lines are still necessary.

www.oig.dhs.gov                                       37                                             OIG-13-104

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   We appreciate the efforts of DHS management and staff to provide the information and
   access necessary to accomplish this review. The principal OIG points of contact for the
   audit are Frank Deffer, Assistant Inspector General for Information Technology Audits,
   (202) 254-4100, and Sharon Huiswoud, Director, Information Systems Division,
   (202) 254-5451. Major OIG contributors to the audit are identified in appendix C.




www.oig.dhs.gov                              38                                     OIG-13-104

                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                 U.S. Ot,..rtmt"nl vr livmc'l-ad ~rll>
                                                                                 \\•JhlllliMo DC 10Sll




                                                                     ·>1Q, Homeland
                                                                     \ . Security
                                                       May 16,2013


             MEMORANDUM FOR:               Fronk Deller
                                           Assistant Inspector General
                                           Office of Inspector Gm~eral

             FROM:                         ~r~
                                           Assi~tant
                                            Director
                                           Departmental GAO-OIG Liaison Office

             SUBJ ECT:                     Technical Security Evaluation of DIIS Activities 01 Hartsfield-
                                           Jackson Atlarua lntcmatronal Airport (010 Project No. 12-031-
                                           ITA-MGMT)


             Thank you for the opportunity to review and comment on this drnft report. nc U.S. Deportment of
             Homeland Secunty (DHS) appreciates the Office ofhrstx:ctor General's (010) work in planning
             and conducting its review and issuing this report.

             DIIS is pleased to note OIG's positive acknowledgement that U.S. Customs nnd Border
             l'rotcction (CBI') has mudc improvements and upgrades at llansticld-Jackson Atlnntn
             International Airport (A TL) to reduce nelwork outages. CBP will continue to work towanl
             improving areas of technical security in the CBP information t~'Chnology (IT) infrnstructure.
             U.S. Immigration and Customs Enforcement (ICF.) nnd Trnnsportalion Sccunty
             Administration (TSA) arc also committed to stren!,>thening technical controls to address the
             weaknesses identified in the report, and hove already begun developing plans of actions and
             milestones to facilitate timely closure of recommendations.

             The drat1 report contained 20 recommendations with which the Depn.nment concurs. Of these,
             the Dellnrtmcnt is requesting closure of four ~'COmmcndutions.

             Spccificnlly, OIG recommended that the CBI' Chief Information Olfic~-r (CIO):

             Recom mendat ion I : l'rovidc ISSOs with real-time security alerts and the capability to review
             audit logs.

             Response: Concur. CBP Office of lnfom1ntion Technology (OtT) wrll provide Information
             System Security Oniccrs (ISSOs) with access to the appropriate logs regarding network
             changes such as muter nnd switch configurntion updates ns well ns user ncccss inlbnnation.
             The DIIS security team is developing a Standard Operating Procedure for reviewing logs
             weekly. l!stimnted Completion Dote (ECD): June 10, 2013.




www.oig.dhs.gov                                                      39                                                  OIG-13-104

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                  Recommendation 2: Resolve high system vulnerabilities in a timely fashion.

                  Response: Concur. CBP OIT will continue to patch system vulnerabilities in a timely
                  manner and will make sure that the outstanding patches are implemented.
                  ECD: June 30, 2013.

                  Recommendation 3: Update the DHS OncNct Security Plan to document the risks
                  associated with the use of out-of-band modems attached to DHS OneNet routers.

                  Rest>onsc: Concur. The DHS OneNct Security Plan has been updated to include the use of
                  out-of-band modems. The Plan will be further updated to documcntthe risks associated with
                  the usc of out-of-band modems attached to OilS One Net routers. ECD: July 31, 2013.

                  Recommendation 4: Obtain temperature and humidity sensors for the ATL server rooms,
                  and maintain them within the temperature and humidity ranges established by the DHS 4300A
                  llandbook.

                  Response: Concur. The Port of Atlanta procured a device which measures humidity and will
                  call up to four telephone numbers if it detects data outside of the set parameters. It was
                  installed and tested in the Phoenix Parkway location during the week of April22, 2013.
                  Funding pcnnitted and with no additional restrictions on procurement, the Port of Atlanta
                  plans to complete installation of the device in all server rooms. ECD: August 30,2013.

                  Recommendation 5: Maintain ATL server and network rooms free of excess stomge and
                  hazardous items that may cause damage to the system.

                  Response: Concur. CBP OIT and CBP Office of Field Operations (OFO) removed excess
                  storage and hazardous items from each of the Port of Atlanta's server and network rooms
                  (completed March 26, 2013). Pictures of the cleaned rooms have been sent to the OIG. On
                  April I, 2013, the CBP OFO ATL began inspecting the rooms for clutter and hazardous items
                  and will continue doing so on a monthly basis. A checklist is being used to document the
                  inspections. Network rooms maintained by others arc also being checked periodically. ECD:
                  Complete.

                  CBP requests O IG closure of recommendation 5.

                  Recommendation 6: Assign the responsibility to rcvtew DIICP server automatic messages
                  and ATL LAN audit logs.

                  Response: Concur. CBP OIT will research, clarify, monitor, and enforce responsibilities for
                  the review of the Dynamic Host Configuration Protocol (DI-ICP} server automatic messages
                  and ATL LAN (Local Area Network) audit logs. ECD: June 30,2013.

                  OIG recommended that the ICE Chief lnfonnation Officer (CIO):

                  Recommendation 7: Provide ISSOs with real-time security alerts and the capability to review
                  audit logs.



                                                                                                              2




www.oig.dhs.gov                                                40                                                 OIG-13-104

                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




                  Response: Concur. The ICE Network Operations Center (NOC) is monitoring the ICE
                  Communication Over Networks (ICON) devices on a constant basis. !fa security risk or
                  incident is found , the NOC will notify the ICE Secure Operations Center (SOC). ICE will
                  provide lSSOs with the capability to review audit logs. ICE (Information Assurance
                  Division) lAD is working with the NOC to implement this capability. ECD: To Be
                  Determined (TBD).

                  Recommendation 8: Resolve high system vulnerabilities in a timely fashion.

                  Response: Concur. In April 2013, ICE Office of the Chief Information Officer (OCIO}
                  published the Plan of Action and Milestone management process. This process describes the
                  steps taken by an IS SO to proactively monitor and manage the remediation of system
                  vulnerabilities. In addition, IC E OCIO is in the process of developing an Enterprise Level
                  Configuration Management Plan that includes Patch Management that will address timely
                  management of resolution of high system vulnerabilities. ECD: June 30, 2013.

                  Recommendation 9: Scan all ICE servers at the SAC Atlanta and AAG sites annually.

                  Response: Concur. Vulnerability scans for the Special Agent in Charge (SAC') Atlanta and
                  Atlanta Airport Group (AAG) are covered in the ICE Security Operations Center
                  Vulnerability Assessment Test (VAT) Program and will be scanned prior to the end o fthc
                  fiscal year. ECD: September 30, 2013.

                  Recommendation 10: Complete security authorization activities for the ICON system.

                  Response: Concur. ICE OCIO will initiate the security controls assessment for ICON in
                  May 20 13 in order to obtain an Authority to Operate (ATO). ECD: August 30, 2013.

                  Recommendation II: Update the ICE ISA with the DHS OncNet to include the OWFPS and
                  ICON systems.

                  Response: Concur. ICE will update the IC E Interconnection Security Agreement (I SA) with
                  the DHS OncNet to include the OCIO Workstations with File and Print Servers (OWFPS) and
                  ICON systems once the ATO lbr ICON is in place. ECD: September 30,2013.

                  Recommendation 12: Complete activities to include the IISI communications analysis and
                  surveillance system server as part of a recognized FISMA-invcntoried system.

                  Response: Concur. ICE OC'IO in coordination with IC E llomeland Security Investigation
                  (I llS) will complete activities to include the liS I communications analysis and surveillance
                  system server as part of the ICE Subpoena System (ISS) Security Authorization package, a
                  recognized Federal ln!bm1ation Security Management Act (FISMA)-inventoried system.
                  ECD: May 31,2013.

                  Recommend ation 13: Obtain smoke detectors for the server rooms at ATL, and also
                  maintain the server rooms within the temperature and humidity ranges established by the DHS
                  4300A Handbook.




                                                                                                                   3




www.oig.dhs.gov                                                   41                                                   OIG-13-104

                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




                  Response: Concur. ICE OClO in coordination with ICE HSl will obtain and install smoke
                  detectors for the ser\'cr rooms at ATL, as well as, maintain the server rooms within the
                  temperature and humidity ranges established by the DHS 4300A Handbook.
                  ECD: June 30,2013.

                  Recommendation 14: Dctcnninc whether it is necessary and cost-eiTcctivc to establ ish
                  redundant data telecommunications services at the SAC Atlanta facility.

                  Response: Concur. SAC Atlanta will conduct an intemal assessment of current
                  telecommunications and data systems to detennine if a redundant system is necessary and
                  cost-effective for this facility. ECD: June 28, 2013.

                  OlG recommended that the TSA Chief lnfom1ation Officer (CIO):

                  Recommendation IS: Pro, ide JSSOs with real-time security alerts and the capability to review
                  audit logs.

                  Response: Concur. TSA has made significant investments in a state-of-the-art Security
                  Operations Center (SOC). The SOC receives system log entries all of which arc correlated
                  into audit logs of system events. The SOC acts as an agent for the ISSOs to pcrfonn this
                  function. All TSA lSSO's have full access to the SOC to observe system events in real time.
                  ln addition, lSSO's have the capability to perfonn historical queries on the systems they arc
                  interested in. ECD: Complete.

                  TSA requests OlG closure of recommendation 15.

                  Recommendation 16: Resolve high system vulnerabilities according to their associated
                  plans of actions and milestones.

                  Response: Concur. The one vulnerability noted had already been identified by TSA and
                  partially nddrcsscd at the time of the OlG testing on December 12,2012. The particular
                  vulnerability required two steps to rcmcdiatc; step- I was completed prior to the O lG testing,
                  and stcp-2 was completed on April 10,2013. TSA provided to OlG during the active audit
                  phase and the period afier, documents detailing the Office of lnfonnation Technology/Federal
                  Air Marshal Service lnfonnation Technology Division active system monitoring and
                  compliance. ECD: Complete.

                  TSA requests OlG closure of recommendation 16.

                  Reco mmendation 17: Scan all TSA servers annually.

                  Response: Concur. TSA lAD will include scanning ofTSA multiplexed (MUX) servers as
                  part of the scheduled Technical Vulnerability Audits conducted at airports annually. TSA
                  MUX Servers are the servers that act as hub devices connecting various Transportation
                  Security Equipment (TSE) in an Airport Environment. The Technical Vulnerability Audits
                  will begin June 2013 and continue on n scheduled basis. ECD: June 30,2013.

                  Recommendation 18: Prepare the BIAs for the identified TSA systems operating at ATL.



                                                                                                                  4




www.oig.dhs.gov                                                  42                                                   OIG-13-104

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                  Response: Concur. TSA will prepare business impact assessments (BIAs) for the identified
                  systems operating at ATL. BIA templates have been distributed to System Owners and
                  ISSOs. ECD: April 30, 2014.

                  Recommendatio n 19: Obtain a smoke detector for the FAMS server room at ATL.

                  Response: Concur. Environmental monitoring for temperature and humidity thresholds is
                  established for the FAMS server room. However, adding smoke detectors will require
                  additional research and coordination to determine the impact on the office lease, funding
                  sources, and local building and fire codes. TSA will begin work with Facilities Management
                  immediately. The completion date will be contingent upon the complexity of implementation.
                  ECD: TBD.

                  Recommendation 20: Detem1ine whether it is necessary and cost-effective to establish
                  redundant data telecommunications services at TSA's ATL tcnninallocations.

                  Response: Concur. TSA perfom1ed an analysis to detennine whether it is necessary and
                  cost-effective to establish redundant data telecommunications services at TSA 's ATL tem1inal
                  location. TSA determined it would not be cost effective to implement the redundancies. In
                  the event of an unforeseen network interruption, TSA will continue to provide screening
                  services without any impact to the mission due to the following redundant telecommunication
                  services that are in place at ATL:
                      • The Blackberry service is on a separate network that provides email services if
                          TSANet at ATL is not operational.
                      • Users can access their email via TSA Outlook Web Access Portal.
                      • ATL has MiFi access for users to VPN to the network.
                      • lntcmal and extemal calls on the TSA VoiP phones would not be affected, since they
                          arc connected via separate voice Primary Rate Interface (PRJ) circuits. Checkpoint
                          and baggage screening operations would continue un-impacted. Additionally, on-
                          going training, would not be impacted since training could continue in an om inc
                          manner.
                  ECD: Complete.

                  TSA requests O IG closure of recommendation 20.

                  Again, thank you for the opportunity to review and comment on this draft report. Technical
                  and sensitivity comments have been sent under separate cover. We look forward to working
                  with you in the future.




                                                                                                               5




www.oig.dhs.gov                                                  43                                                OIG-13-104

                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Sharon Huiswoud, Director
   Kevin Burke, Supervisory Auditor
   Matthew Worner, Senior Auditor
   Charles Twitty, Senior Auditor
   Pamela Chambliss-Williams, Senior Program Analyst
   Steven Tseng, IT Specialist
   Philip Greene, Referencer




www.oig.dhs.gov                            44                   OIG-13-104

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO-OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary for Management
   DHS CISO
   DHS CISO Audit Liaison
   Commissioner, CBP
   CBP CIO
   CBP Audit Liaison
   Director, ICE
   ICE CIO
   ICE Audit Liaison
   Administrator, TSA
   TSA CIO
   TSA Audit Liaison
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  45                        OIG-13-104

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
